                               CLOSEOUT FOR M93100055




                                                                                entitled,
                                                                the first PI, a faculty member in
                                                                 cover l e t t e r w a m e d
                                         e second PI, as a "reviewer to avoid." By way of
 explanation, the first PI said, " a s individual has been represented to me as one who may
 incorporate ideas presented in the proposal into his own research I must ask that he not review
 this proposal. "
                                                                   --   --
         The second program officer had received p r o p o s a l e n t i t l e d ,        6
                                    from the second PI. The second PI sent a cover letter with
 the proposal in which he requested that a number of scientists affiliated with a particular
 scientist's research group not be used as reviewers. The first PI was not named in that letter
 and does not appear to be affiliated with this research group. The second PI said there was a
 "campaign launched in 1983 by [the group] to rob me of credit for my work. . . ." He alleged
 that unnamed members of this group were "reluctant to acknowledge clearly in print their
 mistakes, and their indebtness [sic] to other's ideas, I made a point of doing that. This does not
 disturb them from writing reviews alleging the opposite. . . ."

          NSF returned this proposal to the second PI for administrative reasons. The second PI
 corrected the administrative problems and resubmitted the proposal. The second proposal,
a                   d the same title as the fust. A copy of the cover letter containing the second
  PI'S allegations which accompanied the first proposal was attached to the second proposal.

         OIG reviewed the materials supplied by the program officers and determined that the first
 and second PIS had made vague allegations of intellectual theft and failure to cite. OIG
 contacted each PI and requested additional information. The first PI said that he had not
 personally had ideas stolen by the second PI but had heard stories about incidents which had
 caused him to request that the second PI not review his proposal. He could not provide any
 specific information to support his concerns or that would allow OIG to pursue an allegation of
 misconduct in science. He referred OIG to another scientist who provided OIG with information
 that scientist characterized as mostly "hearsay" and without substantiation. An NSF program


                                           Page 1 of 2                                    M93-55
                              CLOSEOUT FOR M93 100055

officer told OIG that the second PI was generally known in the community as one who rapidly
jumps on the ideas of others and who publishes abstracts describing his incomplete proofs related
to those ideas. OIG was told that scientists in the relevant community have reacted to the second
PI's practice by not discussing their newest ideas with him. Although OIG was informed of the
 second PI's allegedly bad practice, no one could provided specific information about this practice
 so that an allegation of intellectual theft or failure to cite could be pursued.

        When contacted, the second PI said that, about 5 years ago, members of the group had
failed to give him appropriate credit for some of his work. He would not provide any details
which would allow OIG to pursue the matter because he believed any action by OIG would
damage his current relationship with the group. With regard to his statement that he had been
accused of failing to cite others for their ideas he said that, while his work, as is others', is
based on ideas circulating in the field, his development of any particular idea is his own work
and he provides attribution to the correct sources.

        OIG determined that the two PIS' allegations were reflective of professional disputes in
this discipline but were so vague-that they could not be pursued. None of the individuals OIG
contacted provided OIG with sufficient information to inquire further into these allegations.

       This inquiry is closed and no further action will be taken in this case.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 2 of 2
